Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




   REPLACING AVERAGE
WHOLESALE PRICE: MEDICAID
  DRUG PAYMENT POLICY




                   Daniel R. Levinson
                    Inspector General

                      July 2011
                    OEI-03-11-00060
       E X E C U T I V E                                            S U M M A R Y


                               OBJECTIVES
                               1.         To determine how States will set reimbursement for Medicaid
                                          prescription drugs after First DataBank stops publishing average
                                          wholesale prices (AWP) in September 2011.
                               2.         To determine the role that States would prefer the Centers for
                                          Medicare & Medicaid Services (CMS) to play in developing
                                          Medicaid reimbursement methodologies for prescription drugs.


                               BACKGROUND
                               Federal regulations require, with certain exceptions, that Medicaid
                               reimbursement amounts for prescription drugs not exceed (in the
                               aggregate) the lower of (1) the estimated acquisition cost plus a
                               dispensing fee or (2) the provider’s usual and customary charge to the
                               public for the drug. CMS allows States flexibility in determining the
                               estimated acquisition cost. In the first quarter of 2011, 45 States
                               estimated the acquisition cost based on AWP; 37 of these States
                               obtained AWP data from the pricing compendium published by First
                               DataBank. However, Office of Inspector General reports have
                               consistently found that the fundamentally flawed nature of AWP-based
                               reimbursement has caused Medicaid to pay too much for certain drugs.
                               Following the filing of a lawsuit, First DataBank decided to stop
                               publishing AWPs no later than September 26, 2011. This presents
                               States with an opportunity to implement new reimbursement
                               methodologies that more closely approximate pharmacy acquisition
                               costs. States have a variety of other pricing options, such as obtaining
                               AWP from a different source or replacing AWP with average sales price,
                               average manufacturer price, average acquisition cost, or wholesale
                               acquisition cost (WAC).
                               In January 2011, we surveyed all 50 States and the District of Columbia
                               (hereinafter referred to as States) and received responses from each.
                               We asked States whether they intend to change their reimbursement
                               methodologies once AWPs are no longer published by First DataBank.
                               We then asked the States to describe any plans to replace AWP, the
                               timeframe for implementation, and the actions necessary for
                               implementation. We also asked States to describe the role they would
                               prefer CMS to play in developing Medicaid reimbursement
                               methodologies and whether States would prefer that CMS develop a
                               single national benchmark.

O E I - 0 3 - 11 - 0 0 0 6 0   R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y   i
        E       X      E C     U T   I     V      E           S      U M           M      A      R Y


                                         We interviewed CMS staff in February 2011 to determine whether the
                                         agency had provided guidance to all States regarding recent AWP
                                         issues. We also asked CMS to describe any guidance it is planning to
                                         provide States about this topic.


                                         FINDINGS
                                         Twenty States had not developed any definitive plans for
                                         prescription drug reimbursement after First DataBank stops
                                         publishing AWPs. Of the 45 States with AWP-based reimbursement
                                         methodologies in the first quarter of 2011, 20 had not made any
                                         definitive plans regarding reimbursement for Medicaid prescription
                                         drugs after September 2011 (all 20 had obtained AWPs from First
                                         DataBank in the first quarter of 2011). Eight of the twenty States had
                                         not decided whether they will continue to use AWP (from another
                                         source) or instead select another benchmark. Among the remaining
                                         12 States, 6 intend to discontinue using AWP but had not yet taken any
                                         steps to select a new benchmark, 3 intend to continue using AWP but
                                         had not selected the publishing source for AWP data, and 3 are
                                         considering whether to use AWP from another source or to replace AWP
                                         with WAC.
                                         Fifteen States have relatively well-developed plans to move away
                                         from AWP-based reimbursement. Of the 45 States, 15 have relatively
                                         well-developed plans to implement new reimbursement methodologies
                                         that replace AWP with another benchmark. Among these 15 States,
                                         3 plan to replace AWP with average acquisition cost and 12 plan to
                                         replace AWP with WAC.
                                         Ten States will continue using AWP to set reimbursement, at least in
                                         the short term. Of the 45 States, 10 plan to continue using the AWP
                                         after September 2011. This number includes 4 of the 37 States that
                                         currently obtain AWPs from First DataBank and now plan to obtain
                                         AWP data from another source (Medi-Span and/or Micromedex). The
                                         other six States that will continue using AWP were already getting the
                                         data from one of these other sources.
                                         Forty-four States would like CMS to develop a national benchmark
                                         to set Medicaid reimbursement for prescription drugs. Most States
                                         (44 of 51) would prefer that CMS develop a single national benchmark
                                         to set Medicaid reimbursement rates. Twenty-four States specified that
                                         they want a benchmark based on pharmacy acquisition costs.



O E I - 0 3 - 11 - 0 0 0 6 0             R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y   ii
        E       X      E C     U T   I     V      E           S      U M           M      A      R Y


                                         According to CMS staff, the agency has not yet provided uniform
                                         guidance about options for Medicaid reimbursement after AWPs are no
                                         longer available from First DataBank, but is taking steps to address this
                                         issue and plans to provide guidance to States. CMS stated that although
                                         the agency does not mandate that a specific formula or methodology be
                                         used for reimbursement, it plans to conduct a nationwide survey to collect
                                         retail community pharmacy prices for drugs (including acquisition costs)
                                         and intends to discuss the results and other options for States in future
                                         guidance and/or in proposed rulemaking.


                                         RECOMMENDATION
                                         First DataBank will stop publishing AWPs no later than
                                         September 26, 2011, forcing many States to reevaluate how they will
                                         pay for prescription drugs. It will also present States with the
                                         opportunity to move to new reimbursement methodologies that could
                                         better reflect pharmacy acquisition costs. However, many States are
                                         not fully prepared to implement new reimbursement methodologies at
                                         this time. As a result, these States will need to develop, obtain CMS
                                         approval for, and implement new reimbursement methodologies in an
                                         extremely limited timeframe. In addition, a number of States will
                                         either begin or continue to base reimbursement on WAC, a
                                         manufacturer-reported benchmark that, like AWP, is not based on
                                         actual sales transactions.
                                         States overwhelmingly would prefer that CMS, to address the
                                         uncertainty surrounding drug reimbursement decisions, develop a
                                         national benchmark to set reimbursement. A national benchmark that
                                         reflects actual pharmacy acquisition costs would eliminate States’
                                         reliance on the inflated published prices that cause Medicaid and its
                                         beneficiaries to pay too much for certain drugs. Therefore, we
                                         recommend that CMS:
                                         Develop a national benchmark that accurately estimates acquisition
                                         cost and encourage States to consider it when determining
                                         Medicaid reimbursement for prescription drugs.


                                         AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                         RESPONSE
                                         CMS concurred with our recommendation. CMS stated that it is
                                         contracting with a vendor to develop a survey of retail prices and
                                         acquisition cost information. CMS expects to develop an estimate of

O E I - 0 3 - 11 - 0 0 0 6 0             R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y   iii
        E       X      E C     U T   I     V      E           S      U M           M      A      R Y


                                         average acquisition cost using the data from this survey. CMS also
                                         stated that it intends to include external stakeholders in this process to
                                         ensure that there is transparency in the average acquisition cost
                                         determination and that the methodology is implemented appropriately.
                                         We did not make any changes to the report based on CMS’s comments.




O E I - 0 3 - 11 - 0 0 0 6 0             R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y   iv
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Twenty States had not developed any definitive plans for
                    prescription drug reimbursement after First DataBank stops
                    publishing AWPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    Fifteen States have relatively well-developed plans to move
                    away from AWP-based reimbursement . . . . . . . . . . . . . . . . . . . . . 11


                    Ten States will continue using AWP to set reimbursement, at
                    least in the short term . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                    Forty-four States would like CMS to develop a national
                    benchmark to set Medicaid reimbursement for
                    prescription drugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                    Agency Comments and Office of Inspector General Response. . . . 16


         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                    A: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                      I N T R O D U C T I O N


                               OBJECTIVES
                               1. To determine how States will set reimbursement for Medicaid
                                  prescription drugs after First DataBank stops publishing average
                                  wholesale prices (AWP) in September 2011.
                               2. To determine the role that States would prefer the Centers for
                                  Medicare & Medicaid Services (CMS) to play in developing Medicaid
                                  reimbursement methodologies for prescription drugs.


                               BACKGROUND
                               Numerous reports by the Office of Inspector General (OIG) have found
                               that the fundamentally flawed nature of AWP-based reimbursement
                               has caused Medicaid to pay too much for certain drugs. OIG has
                               recommended that CMS work with States and Congress to base
                               payments on a figure that more accurately reflects pharmacy
                               acquisition cost. 1
                               However, as of the first quarter of 2011, 45 States still used AWP as a
                               primary benchmark when setting Medicaid reimbursement amounts;
                               37 of these States obtained AWP data from the publishing company
                               First DataBank. Following the filing of a lawsuit, First DataBank
                               decided to stop publishing AWPs no later than September 26, 2011. 2
                               This has forced many States to reevaluate how they will pay for
                               prescription drugs after that date and presents States with the
                               opportunity to move to new reimbursement methodologies that better
                               reflect pharmacy acquisition costs.




                                   1 For example, seeComparison of Medicaid Federal Upper Limit Amounts to Average
                               Manufacturer Prices (OEI-03-05-00110), June 2005; Variation in State Medicaid Drug
                               Prices (OEI-05-02-00681), September 2004; Cost Containment of Medicaid HIV/AIDS Drug
                               Expenditures (OEI-05-99-00611), July 2001; or Medicaid Pharmacy – Additional Analyses
                               of the Actual Acquisition Cost of Prescription Drug Products (A-06-02-00041),
                               September 2002.
                                 2 First DataBank, Drug Pricing Policy. Accessed at http://www.firstdatabank.com on

                               November 22, 2010. First DataBank will continue to publish other pricing data, such as
                               wholesale acquisition cost (WAC).




O E I - 0 3 - 11 - 0 0 0 6 0   R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y               1
        I     N T              R O   D   U      C T          I     O      N

                                             Medicaid Reimbursement for Prescription Drugs
                                             The Medicaid program, established under Title XIX of the Social
                                             Security Act (the Act), is administered by States and financed using
                                             State and Federal funds. Medicaid pays for medical and health-related
                                             assistance for certain vulnerable and needy individuals and families.
                                             All 50 States and the District of Columbia (hereinafter referred to as
                                             States) provide coverage for prescription drugs under Medicaid. In
                                             2009, Medicaid expenditures for prescription drugs totaled $26 billion.3
                                             Medicaid beneficiaries typically receive covered drugs through
                                             pharmacies, which are reimbursed by State Medicaid agencies. Federal
                                             regulations require, with certain exceptions, that State Medicaid
                                             reimbursement for a covered outpatient drug not exceed (in the
                                             aggregate) the lower of (1) the estimated acquisition cost plus a
                                             dispensing fee or (2) the provider’s usual and customary charge to the
                                             public for the drug.4 Estimated acquisition cost refers to the State’s
                                             best estimate of the price generally and currently paid by providers for
                                             the drug. 5 CMS allows States flexibility in determining the estimated
                                             acquisition cost. Estimating pharmacy acquisition cost has historically
                                             presented a challenge for States because they lack access to pricing data
                                             that are based on actual drug sales.
                                             AWP and WAC. States typically estimate the acquisition cost for a drug
                                             based on published prices, such as AWP and WAC. 6 Most States have
                                             historically used the pricing compendium published by First DataBank
                                             to obtain AWP and WAC data. First DataBank relies on manufacturers
                                             (or other third parties) to report or otherwise make available the values
                                             for AWP and WAC. 7, 8




                                                 3 This was the most recent year for which complete expenditure data were available.

                                                 4 42 CFR § 447.512.

                                                 5 42 CFR § 447.502.

                                               6 For certain generic drugs, States may also set reimbursement through the Federal

                                             upper limit and/or the State maximum allowable cost programs.
                                                 7 Although most brand-name drugs have a WAC, many generic drugs do not.

                                               8 The term “manufacturers” refers to manufacturers, repackagers, private labelers, and

                                             other suppliers. First DataBank, Drug Pricing Policy. Accessed at
                                             http://www.firstdatabank.com on November 22, 2010.




O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y                 2
        I     N T              R O   D   U      C T          I     O      N

                                             Neither AWP nor WAC is based necessarily on actual sales
                                             transactions. AWP is not defined in law or regulation and fails to
                                             account for prompt pay or other discounts, rebates, and reductions. 9
                                             Section 1847A(c)(6)(B) of the Act defines WAC as the manufacturer’s list
                                             price for the drug to wholesalers or direct purchasers, not including
                                             prompt pay or other discounts, rebates, or reductions, for the most
                                             recent month for which information is available.
                                             Based on information from CMS’s Web site, at the end of 2010 all but a
                                             few States either used AWPs discounted by a certain percentage
                                             (5 to 50 percent) to determine estimated acquisition costs for most
                                             covered drugs or used AWP in combination with other available pricing
                                             data (e.g., WAC). 10
                                             Dispensing fees. In addition to reimbursing pharmacies for the cost of
                                             the drug, States are required to determine a “reasonable” dispensing
                                             fee. 11 This fee represents the charge for the professional services
                                             provided by the pharmacist when dispensing a prescription (including
                                             overhead expenses and profit). 12 In the fourth quarter of 2010, State
                                             dispensing fees paid to pharmacies ranged from $1.00 to $14.01 per
                                             prescription.13
                                             AWP Lawsuit Involving First DataBank and McKesson
                                             Typically, a drug manufacturer sells a drug to a wholesaler, which then
                                             sells it to a pharmacy. 14 The price wholesalers charge pharmacies for
                                             the drug is generally based on WAC. As previously mentioned, WAC is
                                             the undiscounted list price that manufacturers report to publishing
                                             companies, such as First DataBank, which use these data to produce



                                                 9 First DataBank,
                                                                Drug Pricing Policy. Accessed at http://www.firstdatabank.com on
                                             November 22, 2010.
                                               10 CMS, Medicaid Prescription Reimbursement Information by State – Quarter Ending

                                             December 2010. Accessed at http://www.cms.gov on February 22, 2011.
                                                 11 42 CFR § 447.512.

                                               12 Health Resources and Services Administration, Pharmacy Affairs & 340B Drug

                                             Pricing Program. Accessed at http://www.hrsa.gov on April 26, 2011.
                                                 13 CMS,
                                                       Medicaid Prescription Reimbursement Information by State – Quarter Ending
                                             December 2010. Accessed at http://www.cms.gov on February 22, 2011. This range
                                             excludes fees for IV therapy and compounded prescriptions.
                                              14 Prescription Access Litigation (PAL), Current Lawsuits: First DataBank McKesson

                                             Medi-Span. Accessed at http://www.prescriptionaccess.org on October 26, 2010.




O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y            3
        I     N T              R O   D   U      C T          I     O      N

                                             pricing compendia. Pharmacies are reimbursed for most drugs covered
                                             under Medicaid based on the State’s estimated acquisition cost formula
                                             (e.g., based on AWP), plus the dispensing fee.15 Pharmacies can profit
                                             from the difference between what they pay to the wholesaler for the
                                             drug and what Medicaid reimburses for the drug (commonly referred to
                                             as the spread). 16
                                             In June 2005 and February 2006, members of PAL 17 filed a lawsuit
                                             alleging that First DataBank and a wholesaler, McKesson, engaged in a
                                             scheme to increase the spread of certain prescription drugs by
                                             reporting higher AWPs. 18 This case was eventually settled, and First
                                             DataBank announced it would discontinue publishing AWPs no later
                                             than September 26, 2011. 19
                                             Other Pricing Options for States
                                             Since the announcement of First DataBank’s settlement, many
                                             stakeholders (e.g., purchasers, pharmacies, providers) have speculated
                                             about the various other pricing benchmarks that could be used as the
                                             basis for Medicaid reimbursement. These include, but are not limited
                                             to, WAC, average acquisition cost (AAC), average manufacturer price
                                             (AMP), and average sales price (ASP). There is little industry
                                             consensus as to which, if any, of these benchmarks will be used by
                                             States. Some stakeholders believe that an AWP replacement may not
                                             even be necessary, at least not in the short term,20 as States will have



                                                 15 42 CFR § 447.512.

                                               16 PAL, Current Lawsuits: First DataBank McKesson Medi-Span. Accessed at

                                             http://www.prescriptionaccess.org on October 26, 2010.
                                                 17 According to its Web site, PAL is a national coalition of more than 130 organizations

                                             whose stated purpose is to challenge illegal drug pricing tactics and to work to make
                                             prescription drug prices more affordable for consumers through class action litigation and
                                             public education. Accessed at http://www.prescriptionaccess.org on November 9, 2010.
                                               18 PAL, Current Lawsuits: First DataBank McKesson Medi-Span. Accessed at

                                             http://www.prescriptionaccess.org on October 26, 2010.
                                                 19 First DataBank,             Drug Pricing Policy. Accessed at http://www.firstdatabank.com on
                                             November 22, 2010.
                                               20 Journal of Managed Care Pharmacy, What Is the Price Benchmark to Replace Average

                                             Wholesale Price (AWP)? Accessed at www.amcp.org on October 22, 2010. Atlantic
                                             Information Services, Inc., Health Business Daily, Competing Stakeholders Disagree Over
                                             the Future of AWP Drug Pricing Benchmark and Possible Replacements. Accessed at
                                             www.aishealth.com on October 26, 2010.




O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y                            4
        I     N T              R O   D   U      C T          I     O      N

                                             access to AWPs in pricing compendia published by other companies,
                                             such as Medi-Span.
                                             WAC. Although First DataBank will cease publication of AWPs, it will
                                             continue to publish other pricing information, such as WACs (pricing
                                             compendia published by other companies will also include WACs). In a
                                             June 2010 white paper, the American Medicaid Pharmacy
                                             Administrators Association and the National Association of State
                                             Medicaid Directors (AMPAA–NASMD) recommended that States use
                                             WAC along with a well-designed maximum allowable cost program21 as
                                             an interim alternative for AWP until a better option is developed. 22
                                             According to AMPAA–NASMD, WAC should be only a temporary
                                             solution because it is practically impossible to audit, does not account
                                             for discounts and therefore does not reflect actual prices, and could be
                                             subject to inflation.
                                             AAC. Two States (Alabama and Oregon) recently switched from an
                                             AWP-based reimbursement method to an AAC-based method. The first
                                             State to do so, Alabama, received CMS approval to implement a new
                                             methodology that uses AAC as the reimbursement benchmark for
                                             brand-name and generic drugs effective September 22, 2010.23 To
                                             determine AAC, Alabama (through a contractor) requests that randomly
                                             selected pharmacies submit 1 month’s worth of invoices semiannually.
                                             The State reviews these invoices and other applicable information to
                                             calculate AAC. CMS also approved Alabama’s request to increase the
                                             dispensing fee from $5.40 to $10.64 per prescription. Alabama’s Web
                                             site states that its AAC plan will establish a transparent, timely, and
                                             accurate pharmacy reimbursement system.
                                             Effective January 1, 2011, CMS approved Oregon’s State Plan
                                             Amendment to replace AWP with AAC in setting payment for Medicaid




                                                21 States may develop maximum allowable cost programs to establish maximum

                                             reimbursement amounts for equivalent groups of multiple-source generic drugs.
                                                 22 AMPAA–NASMD,                   Post AWP Pharmacy Pricing and Reimbursement. Accessed at
                                             http://hsd.aphsa.org on October 26, 2010.
                                                23 Alabama Medicaid Agency, AAC Program Implementation. Accessed at

                                             http://www.medicaid.state.al.us on October 25, 2010. In cases in which no AAC is available,
                                             reimbursement will be based on WAC plus 9.2 percent.




O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y                       5
        I     N T              R O   D   U      C T          I     O      N

                                             prescription drugs. 24 Similar to Alabama’s new methodology, Oregon
                                             (through a contractor) will establish AAC by conducting rolling surveys
                                             of enrolled pharmacies to verify the actual invoice amount paid for a
                                             drug. Oregon is using a tiered per-prescription dispensing fee instead of
                                             a flat rate.
                                             AMP. Section 1927(k)(1) of the Act, as amended by section 2503 of the
                                             Patient Protection and Affordable Care Act (ACA), P.L. 111-148, defines
                                             AMP as the average price paid to a manufacturer by wholesalers for
                                             drugs distributed to retail community pharmacies and by retail
                                             community pharmacies that purchase drugs directly from the
                                             manufacturer, with certain exclusions.
                                             Manufacturers that enter into a Medicaid rebate agreement must report
                                             AMPs to CMS monthly and quarterly. 25 AMPs provided monthly are
                                             used to establish Federal upper limit amounts,26 and AMPs provided
                                             quarterly are used primarily to calculate the rebate amounts owed to
                                             States under the Medicaid drug rebate program. 27
                                             The Deficit Reduction Act of 2005 (DRA), P.L. 109-171, required CMS to
                                             make AMP data available to all State Medicaid agencies.28 This would
                                             have enabled States to use monthly AMP data when setting Medicaid
                                             reimbursement rates for prescription drugs. However, section 2503 of
                                             the ACA modified this requirement in a way that limits the AMP
                                             information available to States for reimbursement or other purposes.29
                                             ASP. ASP is defined as a manufacturer’s sales of a drug to all
                                             purchasers in the United States in a calendar quarter divided by the
                                             total number of drug units sold by the manufacturer in that same




                                                 24 Oregon Medicaid Agency,                    State Plan Amendment, Transmittal # 10-13. Accessed at
                                             http://www.oregon.gov on January 19, 2011.
                                               25 Section 1927(b)(3) of the Act.

                                                 26 Section 2503(a)(1)(B) of ACA.

                                                 27 Section 1927(c)(1)(A) of the Act.

                                                 28 Section 6001 of the DRA required that CMS provide States with AMP data. Although

                                             the DRA did not require States to use AMP data in determining reimbursement, the
                                             dissemination of AMP data would have provided States with a new source for establishing
                                             estimated acquisition cost.
                                                29 The ACA requires CMS to publish weighted AMPs for certain multiple-source drugs,

                                             instead of publishing AMPs for all drugs.




O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y                                 6
        I     N T              R O   D   U      C T          I     O      N

                                             quarter, net of any discounts. 30 Certain sales are exempt from the
                                             calculation of ASP, including sales at a nominal charge. Manufacturers
                                             report ASP data to CMS quarterly, with submissions due 30 days after
                                             the close of the quarter. 31
                                             As of January 2005, CMS replaced AWP with ASP as the basis for
                                             determining reimbursement for most drugs covered under Medicare
                                             Part B. 32 Manufacturers report ASPs to CMS only for certain drugs
                                             covered under Part B, which represent a limited subset of prescription
                                             drugs covered under Medicaid. The Medicare Part B payment amounts
                                             for these drugs are generally 106 percent of ASP.33
                                             Previous OIG Work on AWP
                                             OIG has produced a significant amount of work demonstrating that the
                                             AWPs States use to estimate acquisition costs often overstate the prices
                                             retail pharmacies pay to purchase drugs. This has resulted in inflated
                                             reimbursement rates and has led to excessive Medicaid expenditures for
                                             prescription drugs. 34 Prior OIG reports concluded that the reliance on
                                             manufacturer-reported AWPs as a basis for drug reimbursement is
                                             fundamentally flawed and that AWPs exceed other pricing points. 35
                                             OIG has also repeatedly recommended that CMS work with Congress to
                                             set Medicaid drug reimbursement amounts that more closely
                                             approximate pharmacy acquisition costs. 36 CMS concurred with these
                                             recommendations and stated that OIG’s reports make clear that current




                                               30 Section 1847A(c) of the Act, as added by the Medicare Prescription Drug,

                                             Improvement, and Modernization Act of 2003 (MMA), P.L. 108-173.
                                               31 Section 1927(b)(3) of the Act.
                                                 32 Sections 303(b) and 305(a) of the MMA.
                                                 33 Section 1847A(b)(1) of the Act.
                                                 34 For example, see Medicaid’s Use of Revised                            Average Wholesale Prices
                                             (OEI-03-01-00010), September 2001.
                                               35 For example, see Medicaid Drug Price Comparisons: Average Manufacturer Price to

                                             Published Prices (OEI-05-05-00240), June 2005; Medicaid Drug Price Comparison: Average
                                             Sales Price to Average Wholesale Price (OEI-03-05-00200), June 2005; or Medicaid’s Use of
                                             Revised Average Wholesale Prices (OEI-03-01-00010), September 2001.
                                                 36 For example, seeComparison of Medicaid Federal Upper Limit Amounts to Average
                                             Manufacturer Prices (OEI-03-05-00110), June 2005; Variation in State Medicaid Drug
                                             Prices (OEI-05-02-00681), September 2004; Cost Containment of Medicaid HIV/AIDS Drug
                                             Expenditures (OEI-05-99-00611), July 2001; or Medicaid Pharmacy – Additional Analyses
                                             of the Actual Acquisition Cost of Prescription Drug Products (A-06-02-00041),
                                             September 2002.




O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y                              7
        I     N T              R O   D   U      C T          I     O      N

                                             Medicaid payment rules result in overpayments for drugs and
                                             emphasize the need for reform. Although systemwide reforms were
                                             explored in 2004 and 2005 through congressional hearings 37 and
                                             proposed in the President’s 2006 budget, many States continue to use
                                             AWP as their primary method for setting reimbursement.
                                             Ongoing Work Involving AWP
                                             OIG is conducting an audit that will collect pharmacy invoice data for
                                             selected drugs. The purpose of the audit is to determine pharmacies’
                                             actual acquisition costs and then to compare them to other benchmarks,
                                             such as AWPs, WACs, and AMPs. The audit will provide pricing data
                                             that can help States assess the various benchmarks that could be used
                                             when establishing Medicaid reimbursement methodologies for
                                             prescription drugs.


                                             METHODOLOGY
                                             Data Collection
                                             In January 2011, we emailed online surveys to pharmacy program
                                             administrators at the 51 State Medicaid agencies and received complete
                                             responses from all. 38 We also interviewed CMS staff in February 2011.
                                             Medicaid reimbursement survey. In the survey, we asked States to
                                             describe their reimbursement methodologies for Medicaid prescription
                                             drugs in the first quarter of 2011. We also asked States to report the
                                             sources of the data used to determine reimbursement during that
                                             quarter (e.g., First DataBank).
                                             To assess the effect of First DataBank’s ceasing publication of AWPs, we
                                             first asked States that use AWP as the basis for reimbursement
                                             whether they intended to continue using it. If States intended to
                                             continue using AWP, we asked what publishing company they would
                                             obtain these data from and whether they intend to use AWP in the long
                                             term. If the States did not intend to continue using AWP, we asked that
                                             they describe the changes they had made or anticipate making to their




                                               37 For example, see Medicaid Prescription Drug Reimbursement: Why the Government

                                             Pays Too Much, House Committee on Energy and Commerce, Subcommittee on Oversight
                                             and Investigations, 108th Congress (2004).
                                                 38 This includes the 50 States and the District of Columbia.




O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y           8
        I     N T              R O   D   U      C T          I     O      N

                                             reimbursement methodologies. These States were asked to provide the
                                             benchmark they intend to use to estimate acquisition cost, the actions
                                             necessary for implementation, and the expected date of implementation.
                                             We also asked all States to describe the role they would prefer CMS to
                                             play in developing Medicaid reimbursement methodologies and whether
                                             States would prefer that CMS develop a single national benchmark.
                                             Interview with CMS. We asked staff from CMS’s Center for Medicaid,
                                             Children’s Health Insurance Programs and Survey & Certification
                                             (CMCS) 39 whether the agency has provided guidance to all States in
                                             regard to First DataBank’s ceasing publication of AWPs. If so, we asked
                                             that they provide us with copies of this guidance and the date it was
                                             released. In addition, we asked whether individual States had contacted
                                             CMS with concerns about this topic. We asked whether CMS intends to
                                             provide guidance to all States about AWP issues and Medicaid
                                             reimbursement and, if so, to describe it.
                                             Data Analysis
                                             States’ reimbursement methodologies. We reviewed States’ responses to
                                             the surveys and determined that 45 States had AWP-based
                                             reimbursement methodologies in the first quarter of 2011 (either alone
                                             or in combination with other pricing points, such as WAC) and 37 of
                                             these States obtained AWP information from First DataBank in that
                                             quarter. Of the six States that did not use AWP as a basis for
                                             reimbursement, four usually used WAC (Rhode Island, Massachusetts,
                                             North Carolina, and Ohio) and two had recently switched from AWP to
                                             AAC (Alabama and Oregon).
                                             For the 45 States that reported using AWP-based reimbursement
                                             methodologies in the first quarter of 2011, we analyzed descriptions
                                             about any changes to their methodologies in relation to First DataBank
                                             and AWP. We determined the number of States that (1) were unsure
                                             about their plans to replace AWP, (2) intended to replace AWP with
                                             other benchmarks, or (3) intended to continue using AWP. We further
                                             analyzed the effect First DataBank’s ceasing publication of AWPs may



                                               39 CMCS performs many functions such as assisting States with improving the quality of

                                             their Medicaid operations, and identifying and proposing modifications to Medicaid
                                             program measures, regulations, laws, and policies.




O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y             9
        I     N T              R O   D   U      C T          I     O N

                                             have on reimbursement methodologies by calculating the number of
                                             States within each of the three groups that had obtained AWPs from
                                             First DataBank in the first quarter of 2011.
                                             If a State was unsure about its plans to continue using AWP, we
                                             reviewed its responses to other survey questions to gain a better
                                             perspective of how the State would likely proceed. For example, we
                                             reviewed answers about whether a new source for AWP had been
                                             considered and whether the State had begun to develop plans for a new
                                             methodology.
                                             If the State did not intend to continue using AWP, we reviewed State
                                             responses to determine the benchmark that would be used to replace
                                             AWP, the reasons for selecting the new benchmark, and when the new
                                             methodology might be implemented.
                                             For States that intend to continue using an AWP-based reimbursement
                                             methodology, we determined whether they had selected a publishing
                                             company to use in obtaining AWP, and if so, which source was selected.
                                             We also determined whether the States intend to use AWP in the long
                                             term.
                                             CMS’s role in AWP issues. We reviewed responses from CMS staff to
                                             determine whether the agency has provided guidance (or intends to
                                             provide guidance) to all States in regard to AWP issues. We also
                                             determined whether individual States had contacted CMS with
                                             questions about the future of Medicaid reimbursement after AWPs are
                                             no longer available from First DataBank. In conjunction with the CMS
                                             interview, we reviewed States’ responses about the role they would like
                                             CMS to play in regard to this topic. We calculated the number of States
                                             that would prefer CMS to develop one national benchmark to set
                                             Medicaid reimbursement.
                                             Limitations
                                             Our findings are based on self-reported survey responses of State
                                             Medicaid agencies. We did not verify their accuracy. Responses were
                                             current as of February 2011; therefore, how States intend to pay for
                                             prescription drugs may have changed after that date.
                                             Standards
                                             This study was conducted in accordance with the Quality Standards for
                                             Inspection and Evaluation issued by the Council of the Inspectors
                                             General on Integrity and Efficiency.



O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y   10
                      F I N D I N G S
                                                                              Twenty of the forty-five
                 Twenty States had not developed any definitive
                                                                              States that used AWP to set
                    plans for prescription drug reimbursement                 reimbursement for Medicaid
                   after First DataBank stops publishing AWPs                 prescription drugs in the
                                                                              first quarter of 2011 had not
                                  made any definitive plans regarding reimbursement for Medicaid
                                  prescription drugs after September 2011. These 20 States were among
                                  the 37 that obtained AWPs from First DataBank in the first quarter of
                                  2011. As a result, in an extremely short timespan, all 20 States will
                                  need to either contract with a new publishing company to obtain AWP
                                  data or implement new reimbursement methodologies that do not rely
                                  on AWPs.
                                   Eight of the twenty States were unsure about nearly every aspect of
                                   their post-September 2011 reimbursement plans. These eight States
                                   had not decided whether they will continue to use AWP (from another
                                   source) or instead select another benchmark. The remaining 12 States
                                   were able to provide some detail about their reimbursement plans. Six
                                   States intend to discontinue using AWP but had not yet taken any steps
                                   to select a new benchmark, three States intend to continue using AWP
                                   but had not selected the publishing source for AWP data, 40 and three
                                   States are considering plans to either use AWP from another source or
                                   replace AWP with WAC.


                      Fifteen States have relatively well-developed          In total, 15 of the 45 States
                                                                             that used AWP in determining
                             plans to move away from AWP-based
                                                                             reimbursement for Medicaid
                                                     reimbursement
                                                                             prescription drugs in the first
                                   quarter of 2011 have relatively well-developed plans to implement new
                                   methodologies that replace AWP with another benchmark. 41 Thirteen of
                                   these fifteen States were among the 37 that used AWP data from First
                                   DataBank in the first quarter of 2011. In addition, two States that had




                                       40 One of these States noted that it is using AWP as a contingency plan until it can

                                   incorporate CMS-published prices, such as AMP or actual acquisition cost.
                                      41 We considered a State to have a relatively well-developed plan if it could provide

                                   details about how drugs would be reimbursed after First DataBank stops publishing AWPs
                                   (e.g., the benchmark that would be used to replace AWP).




O E I - 0 3 - 11 - 0 0 0 6 0       R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y                 11
        F      I     N         D I   N G    S

                                           obtained AWP from a source other than First DataBank in the first
                                           quarter of 2011 still intend to replace AWP.
                                           Three of the fifteen States plan to replace AWP with acquisition cost
                                           Three States are developing new reimbursement methodologies that use
                                           acquisition cost obtained through pharmacy surveys. 42, 43 Two of these
                                           States had used First DataBank and the third State had used
                                           Medi-Span to obtain AWPs in the first quarter of 2011. Of the States
                                           using First DataBank, one has collected the pharmacy data needed to
                                           calculate AAC and hopes to use these data in calculating Medicaid
                                           reimbursement in the third quarter of 2011; the other State has
                                           proposed legislative changes and intends to complete a pharmacy
                                           acquisition cost survey. The State that obtained AWP from Medi-Span
                                           has drafted a preliminary reimbursement plan to use AAC.
                                           Twelve of the fifteen States plan to replace AWP with WAC
                                           Twelve States intend to use WAC to determine Medicaid
                                           reimbursement amounts after AWPs are no longer available from First
                                           DataBank.44 The factors these States considered when selecting WAC
                                           as the new benchmark included its budget neutrality and availability.
                                           All but one of these States had obtained AWPs from First DataBank in
                                           the first quarter of 2011.
                                           Three of the 12 States already included WAC as a reimbursement
                                           option (in addition to AWP) prior to the first quarter of 2011.45 These
                                           three States intend to eliminate the AWP option from their
                                           methodologies once First DataBank stops AWP publication and instead
                                           use WAC exclusively. Among the remaining nine States, three did not
                                           have a set date for implementing the new WAC-based methodologies



                                               42 In addition to these three States, Alabama and Oregon implemented reimbursement

                                           methodologies that replaced AWP with AAC in September 2010 and January 2011,
                                           respectively.
                                             43 Based on online reports, one of these States no longer intends to implement an

                                           AAC-based reimbursement method. Accessed at http://www.drugchannels.net on
                                           April 13, 2011.
                                               44 This is in addition to the four States (Rhode Island, Massachusetts, North Carolina,

                                           and Ohio) that did not have AWP-based reimbursement methodologies in the first quarter
                                           of 2011 and were using WAC exclusively.
                                             45 Two of the States had added the WAC option in December 2010; the remaining State

                                           has included WAC and AWP in its reimbursement plan since 2003.




O E I - 0 3 - 11 - 0 0 0 6 0               R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y                    12
        F      I     N         D I   N G    S

                                           and six provided tentative dates that ranged from July 2011 to “late”
                                           2011.

                           Ten States will continue using AWP to set               Ten of the forty-five States that
                                                                                   used AWP to set reimbursement
                            reimbursement, at least in the short term
                                                                                   for Medicaid prescription drugs in
                                           the first quarter of 2011 plan to continue using the benchmark after
                                           September 2011. Among these 10 States, 4 had obtained AWPs from
                                           First DataBank in the first quarter of 2011 and now plan to obtain AWP
                                           data from another source (Medi-Span and/or Micromedex). The other
                                           six States were already getting the data from one of these other sources.
                                           However, only 1 of the 10 States was certain it would use AWP to
                                           calculate reimbursement in the long term.46 The remaining nine States
                                           were either unsure whether they would use AWP as a long-term method
                                           (six States) or reported that they would use AWP as an interim plan
                                           until a new benchmark was selected (three States).

              Forty-four States would like CMS to develop a                         Most States (44 of 51) wanted
                                                                                    CMS to develop a single
                        national benchmark to set Medicaid
                                                                                    national benchmark to set
                      reimbursement for prescription drugs
                                                                                    Medicaid reimbursement rates.
                                           Almost half of States (24) specified that they wanted a benchmark based
                                           on pharmacy acquisition costs (the majority of the remaining States did
                                           not specify a preferred benchmark). One State mentioned that CMS
                                           would have less of a challenge obtaining access to acquisition cost data
                                           than would individual States. In addition, if CMS obtained acquisition
                                           cost data, that would relieve States of the need for and expense of
                                           conducting an acquisition cost survey on their own. Certain States also
                                           mentioned that the acquisition cost benchmark should be updated
                                           frequently and consider regional (urban or rural) differences and
                                           pharmacy-type differences (e.g., chain, independent, specialty).
                                           Among the seven States that did not want CMS to develop a national
                                           benchmark, the majority (four) had plans to continue using AWP (two
                                           had obtained AWPs from First DataBank and two from Medi-Span in
                                           the first quarter of 2011). Of the remaining States, one had already



                                               46 We did not provide States with a definition for what constitutes a long-term plan.




O E I - 0 3 - 11 - 0 0 0 6 0               R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y                  13
        F      I     N         D I   N G    S

                                           switched from AWP to an AAC-based reimbursement method, one
                                           intended to switch to a WAC-based reimbursement method, and one did
                                           not have definitive reimbursement plans after First DataBank stops
                                           publishing AWPs.
                                           CMS is taking steps to address the AWP issue and plans to provide
                                           guidance in the future
                                           Our interview with CMS staff in February 2011 indicated that the
                                           agency had not yet provided uniform guidance to all States about
                                           options for Medicaid reimbursement after AWPs are no longer available
                                           from First DataBank. However, CMS intends to provide guidance about
                                           this topic in the future. CMS stated that although the agency does not
                                           mandate that a specific formula or methodology be used for
                                           reimbursement, it plans to conduct a nationwide survey to collect retail
                                           community pharmacy prices for drugs 47 (including acquisition costs) and
                                           intends to discuss the results and other options for States in future
                                           guidance and/or proposed rulemaking. In addition, when individual
                                           States contacted CMS about whether it plans to provide a new reference
                                           price that reflects pharmacy acquisition costs, CMS responded that it
                                           will make the data derived from this survey publicly available.48 When
                                           complete, these data would provide States with an additional
                                           benchmark option that reflects actual cost.




                                               47 As described in section 6001(e) of the DRA.

                                             48 CMS, Statement of Work, Survey of Retail Prices; Payment and Utilization Rates; and

                                           Performance Rankings. Accessed at http://www.fbo.gov on February 22, 2011.




O E I - 0 3 - 11 - 0 0 0 6 0               R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y            14
        F      I     N
                      R DE I C N OG MS M E N D A T I O N


                                 To ensure that Medicaid pays appropriately for prescription drugs, any
                                 reimbursement methodology must be based on benchmarks that are
                                 accurate and reliable estimates of pharmacy acquisition costs. As of the
                                 first quarter of 2011, the majority of States used AWP data obtained
                                 from First DataBank as the primary benchmark. Several OIG reports
                                 have shown that the inflated nature of AWPs causes Medicaid to pay too
                                 much for certain drugs, and as a result, we recommended that CMS
                                 work with States and Congress to base payments on a benchmark that
                                 more accurately reflects pharmacy acquisition costs. Regardless, many
                                 States continue to use AWPs to set drug reimbursement amounts.
                                 First DataBank will stop publishing AWPs no later than
                                 September 26, 2011. This has forced many States to reevaluate how
                                 they will pay for prescription drugs after that date and presents States
                                 with the opportunity to move to new reimbursement methodologies that
                                 would better reflect pharmacy acquisition costs. However, many States
                                 are not fully prepared to implement new reimbursement methodologies
                                 at this time. As a result, they will need to develop, obtain CMS
                                 approval for, and implement new reimbursement methodologies in an
                                 extremely limited timeframe. In addition, a number of States will
                                 either begin or continue to base reimbursement on WAC, a
                                 manufacturer-reported benchmark that, like AWP, is not based on
                                 actual sales transactions.
                                 States overwhelmingly would prefer that CMS, to address the
                                 uncertainty surrounding drug reimbursement decisions, develop a
                                 national benchmark to set reimbursement. A national benchmark that
                                 reflects actual pharmacy acquisition costs would eliminate States’
                                 reliance on the inflated published prices that cause Medicaid and its
                                 beneficiaries to pay too much for certain drugs. A CMS-developed
                                 national benchmark may also be more efficient and cost-effective than
                                 having 51 State Medicaid agencies individually collecting acquisition
                                 cost data from pharmacies. Therefore, we recommend that CMS:

                                 Develop a national benchmark that accurately estimates acquisition cost
                                 and encourage States to consider it when determining Medicaid
                                 reimbursement for prescription drugs
                                 A CMS contractor plans to administer a survey to collect monthly
                                 pharmacy pricing data, including acquisition costs. Using the data
                                 gathered in this survey, CMS should develop a national benchmark that
                                 reflects pharmacy acquisition costs (by the fourth quarter of 2011, if

O E I - 0 3 - 11 - 0 0 0 6 0     R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y   15
              R       E C      O   M   M       E      N D          A T           I    O      N

                                           possible), giving States an additional option to use in setting Medicaid
                                           reimbursement for prescription drugs. Among other things, this
                                           benchmark should account for differences in the types and the
                                           geographical locations of pharmacies. After the national benchmark is
                                           provided to States, CMS should update it frequently to reflect price
                                           changes in the market. In addition, with the implementation of any
                                           new methodology based on this benchmark, CMS should ask States to
                                           review their dispensing fees to ensure that payment levels for
                                           pharmacies are fair and appropriate.
                                           Although we recognize that CMS currently does not mandate the
                                           method States use to set reimbursement rates, we believe CMS should
                                           encourage all States to adopt the national benchmark. According to our
                                           survey, States are looking to CMS for guidance in setting a benchmark
                                           and would welcome one based on actual pharmacy acquisition costs.
                                           This benchmark would have the potential to streamline Medicaid
                                           reimbursement systems; provide a transparent basis for payment; and,
                                           if applied appropriately, significantly reduce Medicaid payment
                                           amounts for prescription drugs.


                                           AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                           RESPONSE
                                           CMS concurred with our recommendation. CMS stated that it is
                                           contracting with a vendor to develop a survey of retail prices and
                                           acquisition cost information. CMS expects the survey will provide the
                                           ingredient costs of all covered outpatient drugs purchased by retail
                                           community pharmacies, including independent community pharmacies,
                                           chain pharmacies, and specialty pharmacies. CMS expects to use these
                                           data to develop an estimate of AAC. CMS also stated that it intends to
                                           include external stakeholders in this process to ensure that there is
                                           transparency with the AAC determination and that the methodology is
                                           implemented appropriately.
                                           We did not make any changes to the report based on CMS’s comments.
                                           For the full text of CMS’s comments, see Appendix A.




O E I - 0 3 - 11 - 0 0 0 6 0               R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y   16
                     A P PEN D                    x               A



Agency Comments



     /S.$""VIr:~.~



 (          ~          DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services

     ,S~                                                                                      Administrator
                                                                                               Washington, DC 20201




                     DATE:
                                      JUN 0 8 lOl1
                     TO: 	         Daniel R, Levinson 

                                   Inspector General 

                                                               /S/
                     FROM: 	       Donald M. Berwick, M.D_ 

                                   Administrator 


                     SUBJECT: 	 Office ofInspector General (OIG) Draft Report: "Replacing Average Wholesale
                                Price: Medicaid Drug Payment Policy," (OEl-03-11-00060)


                     Thank you for the opportunity to review and comment on the OIG Draft Report entitled
                     "Replacing Average Wholesale Price: Medicaid Drug Payment Policy" (OEI-03·11-00060).
                     The 010 surveyed aliSO States and the District of Columbia to determine how States will set
                     reimbursement for Medicaid prescription drugs after First DataBank stops publishing average
                     wholesale prices (AWP) in September .2011, and to determine the role that States would prefer
                     the Centers for Medicare & Medicaid Services (CMS) to play in developing Medicaid
                     reimbursement methodologies for prescription drugs.

                     The OIG fOllnd that of the 45 States with an AWP-based reimbursement methodology in the tirst
                     quarter of 20 II, 20 States had not developed any definitive plans for prescription drug
                     reimbursement after First DataBank stops publishing AWPs. The OIG also reported that IS
                     States have relatively well-developed plans to move away from AWP-based reimbursement.
                     Finally, the OIG reported that there were 10 States that stated they would continue using A WP to
                     set reimbursement aftet First DataBank ceases to publish these rates. Fo.ur of the 10 States were
                     receiving AWP from First DataBank, and have now made plans to obtain AWP data from
                     another sOllrce (Medi-Span and/or Micromedex).

                     In addition, the OIG leamed that 44 States would like CMS to develop a national benchmark to
                     use in setting Medicaid reimbursement for prescription drugs.

                     OIG Recommendatiqn

                      CMS should develop a national benchmark that accutately estimates acquisition cost and
                      encourage States to consider it when determining Medicaid reimbursement for prescription
                      drugs.




OEI·03·11·00060                       REPLACING AWP:   MEDICAID DRUG PAYMENT POLICY                                                       17
        A       P P            E   N   D I      X           ~          A




O E I - 0 3 - 11 - 0 0 0 6 0                 R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y   18
                      A C K N O W L E D G M E N T S


                               This report was prepared under the direction of Robert A. Vito, Regional
                               Inspector General for Evaluation and Inspections in the Philadelphia
                               regional office, and David E. Tawes, Director of the Medicare and
                               Medicaid Prescription Drug Unit.
                               Stephanie Yeager served as the team leader for this study. Central
                               office staff who contributed include Kevin Manley.




O E I - 0 3 - 11 - 0 0 0 6 0   R E P L A C I N G AW P : M E D I C A I D D R U G P A Y M E N T P O L I C Y   19
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
